Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

                            Key Issues for
For Release on Delivery
Expected at
2:00 p.m. EST
Wednesday
February 11, 2009           Reauthorizing the
                            Federal Aviation
CC-2009-037



                            Administration


                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Chairman Costello, Ranking Member Petri, and Members of the Subcommittee:

We appreciate the opportunity to discuss the key issues facing the Federal Aviation
Administration (FAA) and the aviation community. As with most major industries,
U.S. civil aviation is facing uncertainty amidst the current economic crisis. The
National Airspace System is an integral part of the Nation’s economy and handles
almost 50,000 flights per day and more than 700 million passengers annually.
Aviation contributed over $1.2 trillion to the Nation’s economy in 2006.

As the Subcommittee is aware, FAA does not have a long-term authorization or
funding mechanism in place and has been operating on a short-term extension since
September. The current extension expires in March 2009. However, the aviation
environment has changed significantly since Congress last debated proposals for
reauthorizing and financing FAA.

U.S. airlines have been buffeted by the softening economy and volatile fuel costs. As
a result, carriers have taken a considerable amount of capacity out of the system,
although load factors remain high. By November 2008, airlines cut back scheduled
domestic flights and available seat miles by 13 percent and grounded approximately
360 aircraft (mostly the less fuel efficient models in their fleets), which resulted in
37,000 airline employees losing their jobs.

Airports have been impacted as well, particularly in terms of service to small
communities, with some losing commercial service entirely. In the case of large
airports, there are concerns that some may delay infrastructure projects as revenue
sources continue to decline.

The decline in traffic has also impacted the Aviation Trust Fund, the largest source of
revenue for FAA’s $15 billion annual budget. According to Treasury Department
data, Trust Fund revenues have declined by more than 11 percent during the first
quarter of fiscal year (FY) 2009. Given the drop in traffic and the resulting decline in
passenger taxes, it is almost certain that future Trust Fund tax revenues will decrease
significantly during the balance of FY 2009 and in FY 2010 as well.

Notwithstanding the uncertainties facing the industry, this situation provides FAA
with opportunities to focus on key challenges it must address to be strategically
positioned for an industry rebound. We see four overarching areas that need to be at
the center of FAA’s efforts over the next several years: (1) maintaining public
confidence in FAA’s ability to provide oversight of a dynamic industry, (2) setting
expectations and budget priorities for NextGen, (3) bolstering key safety workforces,
and (4) financing future airport development while facing unstable long-term airport
funding mechanisms.




                                                                                      1
Maintaining Public Confidence in FAA’s Ability To Provide Oversight of
a Dynamic Industry
Over the last several years, the aviation industry has experienced the safest period in
history. This is due, in part, to the dedicated efforts of the professionals within FAA
and throughout the aviation industry. Last month, we saw a dramatic example of
aviation professionalism when U.S. Airways flight 1549 made an emergency landing
in the Hudson River, and, miraculously, all 155 passengers and crew survived largely
because of the skills of the pilot and crew. Nevertheless, airline consolidation and
downsizing continue to drastically change the industry, and widely publicized lapses
in FAA oversight in 2008 emphasize the need for FAA to continually adapt its
oversight to further enhance safety. Key challenges for FAA include:

    • Maintaining public confidence in FAA’s oversight of air carrier operations.
      In April 2008, we reported that an FAA safety inspector had an overly
      collaborative relationship with Southwest Airlines. The inspector violated FAA
      safety directives by permitting the air carrier to operate 46 planes without required
      inspections for fuselage cracks. Our work at Southwest and other carriers has also
      found weaknesses in FAA’s national program for risk-based oversight, the Air
      Transportation Oversight System (ATOS). At Southwest, multiple missed ATOS
      inspections allowed safety directive compliance issues in Southwest’s
      maintenance program to go undetected for several years. Our current review of
      ATOS has disclosed that this problem was not limited to Southwest—FAA
      oversight offices for seven other major air carriers also missed ATOS inspections.
      FAA needs to bolster the integrity of its airline oversight by protecting
      whistleblowers, improving risk-based systems for targeting inspector resources,
      and establishing mechanisms at the national level to provide quality assurance and
      independent assessments of field office inspection efforts.

    • Following through on longstanding commitments to improve oversight of
      external repair facilities. FAA continues to face challenges in identifying where
      critical aircraft maintenance 1 is performed. A key issue is that FAA’s risk-based
      oversight system does not include critical repairs performed by non-certificated
      repair facilities. Currently, FAA does not require that air carriers report all repair
      stations performing repairs to critical components or that FAA inspectors validate
      voluntarily submitted information. FAA needs to advance risk-based oversight of
      outsourced maintenance providers (both foreign and domestic) by developing and
      implementing a system for determining how much and where aircraft maintenance
      is performed.

    • Improving runway safety. Runway incidents continue to be a substantial threat
      to safety. The December 2008 accident at Denver International, when a
1
    “Critical maintenance” describes mandatory maintenance activities that, due to their importance to the overall
    airworthiness of the aircraft, must be independently inspected by a specially trained inspector after the work is complete.


                                                                                                                                  2
      Continental 737 veered off the runway into an adjacent field during take-off and
      caught fire, underscores the seriousness of these incidents. Many see new
      technology as a key runway safety solution. However, our reviews of three major
      FAA technologies for improving runway safety disclosed serious concerns about
      what can be effectively deployed within the next several years. Key steps to
      meeting this challenge include implementing airport-specific infrastructure and
      procedural changes and reinvigorating existing FAA national programs for
      improving runway safety.

Setting Expectations and Budget Priorities for NextGen
Developing the Next Generation Air Transportation System (NextGen) is a high-risk
effort involving billion-dollar investments from both the Government and industry.
After more than 4 years of planning, FAA must shift to implementation. To reduce
risk, we recommended last April 2 that FAA conduct a “gap analysis” of the current
system and the vastly different NextGen system planned for 2025 and develop an
interim architecture. FAA has focused considerable attention on mid-term objectives,
but fundamental issues need to be addressed. These include the following:

    • Completing the gap analysis of today’s system and NextGen as promised and
      refining the NextGen mid-term architecture. These two efforts are important
      because FAA intends to rely on existing automation systems to provide the basis
      for NextGen through the mid term. However, until FAA establishes the detailed
      changes needed to transition to NextGen, it will be impossible to determine
      requirements that can be used to develop reliable cost and schedule estimates to
      achieve NextGen’s mid-term goals.

    • Establishing priorities and Agency commitments with stakeholders and
      reflecting them in budget requests and plans. It remains difficult for decision
      makers to determine what to invest in first from the wide range of operational
      improvements in NextGen planning documents. Also, stakeholders have asked
      FAA to clearly state mid-term Agency and operator commitments in its NextGen
      plans.

    • Managing NextGen initiatives as portfolios and establishing clear lines of
      responsibility, authority, and accountability. It is important to manage
      NextGen capabilities in an integrated way because new systems as well as
      procedure and airspace changes will be needed to deliver benefits. However,
      FAA’s Acquisition Management System was not designed for managing NextGen
      investments. Rather, FAA’s system focuses on baselines and specific capital
      programs—not a collection of investments. FAA recognizes that it must adjust its
      process for approving acquisitions. FAA could also strengthen its NextGen

2
    OIG Report Number AV-2008-049, “Air Traffic Control Modernization,” April 14, 2008. OIG reports and testimonies
    are available on our website: www.oig.dot.gov.


                                                                                                                 3
   Implementation Plan by assigning responsibility, authority, and accountability for
   specific NextGen portfolios.

 • Identifying the number and type of facilities that will be needed to support
   NextGen. FAA has not made key decisions regarding facility consolidations and
   infrastructure needs—a key cost driver for NextGen. FAA plans to spend
   $17 million in FY 2009 to examine various alternatives for revamping its
   facilities. The realignment or consolidation of FAA facilities is a controversial
   undertaking. Therefore, FAA must ensure that this analysis clearly addresses the
   technological and security prerequisites, cost drivers, benefits, and logistical
   concerns associated with consolidation so decision makers will know what can be
   reasonably accomplished.

Bolstering Key Safety Workforces
FAA continues to face significant attrition in two of its most critical safety
workforces: air traffic controllers and aviation safety inspectors. Over the next
decade, FAA must maintain enough professionals with the right skill mix in both of
these workforces to ensure the safe and efficient operations of the National Airspace
System. Key challenges for FAA include the following:

 • Hiring and training the next generation of air traffic controllers. Through
   2017, FAA plans to hire and train nearly 17,000 new controllers to replace those
   who were hired after the 1981 strike and are now retiring. A major challenge will
   be training and certifying the huge surge of new controllers at their assigned
   location, a process that currently takes up to 3 years. Controllers in training now
   represent nearly 26 percent of the workforce (up from 15 percent in 2004).
   However, many key facilities, such as the Southern California Terminal Radar
   Approach Control, or TRACON (which expects to have nearly 100 controllers in
   training later this year or over 40 percent of its workforce), already exceed the
   national levels. Ensuring there are enough certified controllers at FAA’s more
   than 300 air traffic control facilities will remain a significant watch item for the
   Department and Congress for at least the next 10 years.

 • Addressing controller human factor issues. As attrition increases, FAA must
   also continue addressing controller human factor issues such as fatigue and
   attention. Congress has expressed concerns regarding controller human factor
   issues because the influx of new controllers will need both technical and human
   factors training. Human factors training is critical since almost 90 percent of
   controller operational errors (when a controller allows two aircraft to get too close
   together either on the runway or in the air) are due to human factors issues rather
   than procedural or equipment deficiencies. Based on our ongoing work, FAA
   needs to focus on training controllers about fatigue and revising its policies on
   controller rotational shift schedules and rest requirements.


                                                                                      4
    • Ensuring a sufficient number of appropriately placed safety inspectors to
      address a divergent aviation environment. It is not reasonable to expect FAA to
      have an inspector workforce large enough to oversee all aspects of a dynamic
      aviation industry; therefore, it is critical that FAA ensure its inspectors are placed
      where they are most needed. In a congressionally directed 2006 study, the
      National Research Council concluded that FAA’s current methodology for
      allocating inspector resources was not effective and recommended that FAA
      develop a new approach. FAA has initiated work on a new model, but it is not
      planned for completion until October 2009. Given the nature of the industry,
      measurable progress on developing a new staffing model over the next year
      remains an important watch item.

Financing Future Airport Development While Facing Unstable
Long-Term Airport Funding Mechanisms
FAA estimates 3 that nearly $50 billion will be needed for future airport development
from FY 2009 to FY 2013. This exceeds the previous peak set in 2001 by more than
7 percent ($49.7 billion versus $46.2 billion). Airport development relies on several
funding mechanisms. These include FAA assistance through grants-in-aid under its
Airport Improvement Program (AIP); passenger facility charges (PFC); bonds; and
self-generated revenues from airlines, parking, and concessions.

However, volatile fuel prices and a softening economy have led to airline service
reductions and capacity cuts, which have caused passenger traffic to decline. This in
turn has led to uncertainty with long-term airport funding mechanisms, which could
inhibit future airport development. Specifically:

• When airports experience reductions in passenger traffic, PFC collections4
  automatically decline. PFCs are a source of funding that airports largely depend on
  to finance capital improvement projects that are usually ineligible to receive AIP
  funds (such as airport terminal improvements).

• The unstable financial markets have made it difficult for airports to issue bonds.
  Consequently, airports are being forced to either postpone key development projects
  or find other sources of short-term financing as an interim fix to keep projects
  moving.

Airports are taking measures to offset these decreases in revenue. These measures
include requesting higher levels of AIP discretionary funding for planned capital
improvement projects. Because Vision 100 5 expired at the end of FY 2007, and a


3
    Federal Aviation Administration, Report to Congress, “National Plan of Integrated Airport Systems,” 2009-2013.
4
    PFCs are currently capped at $4.50 per passenger enplanement (i.e., passenger boarding).
5
    Vision 100 – Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).


                                                                                                                     5
long-term reauthorization is not yet in place, there are no funding targets for FY 2010
and beyond.

The Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 6
which funded FAA in FY 2009, provided a short-term appropriation of $1.5 billion
for the AIP account but did not extend the AIP contract or obligation authority to
issue new AIP grants beyond March 6, 2009. The uncertainty of future AIP grant
authority makes it difficult for the Nation’s airports to determine when or if they will
receive their AIP grants.

The economic stimulus packages proposed in the House and Senate contain
significant funding amounts for the AIP that will help to revitalize airport
development this year and next year. However, such a large, rapid infusion of new
funds could create significant oversight challenges for FAA. For example, there will
be pressure to begin projects quickly, and FAA and the Department will have to
balance this pressure against the need to continually emphasize safety. It is critical
that FAA prepare for the potential risks involved and ensure steps are underway to
mitigate them.

Mr. Chairman, as part of our recently announced Department-wide review of
oversight challenges associated with economic stimulus funding for transportation
projects, I can assure you that my office will be working with the Department to
identify risks, oversight challenges, and best practices associated with the stimulus
funding for the AIP.

I would now like to discuss in further detail the state of the aviation industry and
FAA’s budget and financing challenges as they relate to these four areas.




6
    Pub L. No. 110-329 (2008).


                                                                                      6
PERSPECTIVES ON THE STATE OF THE AVIATION
INDUSTRY, FAA’S BUDGET, AND FINANCING
MECHANISMS
Since FAA submitted its reauthorization proposal in 2007, the aviation environment
has changed significantly. The current economic downturn following record-high
fuel prices has caused air carriers to dramatically scale back operations. This trend is
also affecting the Airport and Airway Trust Fund, the main funding mechanism for
FAA programs.

    • In response to last year’s increased fuel prices, airlines took drastic measures to
      reduce costs. By November 2008, airlines cut back scheduled domestic flights and
      available seat miles by 13 percent and grounded approximately 360 aircraft
      (mostly the less fuel efficient models in their fleets), which resulted in
      37,000 airline employees losing their jobs.

    • Airline cutbacks hit airports of all sizes and brought the number of flights to the
      lowest levels in 6 years. Comparing November 2007 with November 2008, we
      found scheduled domestic flights in November 2008 were down approximately
      10 percent for the large-hub airports, 16 percent for medium-hub airports,
      14 percent for small-hub airports, and 14 percent for non-hub airports. 7

    • Airline reductions in capacity also helped reduce delays within the system. While
      2007 trends in flight delays continued into the first half of 2008—with more than
      1 in 4 flights delayed or cancelled—system-wide flight delays declined by
      24 percent in the second half of 2008 as airlines initiated capacity cutbacks and
      schedule changes. However, high levels of delay continued at major airports such
      as Newark, Kennedy, Atlanta, and Miami.

Observations on FAA’s Budget
Over the past 3 years, FAA’s annual budget has totaled between $14.5 billion and
$15 billion. Approximately 59 percent of this funding has been allocated to the
Operations account, 18 percent to the Facilities and Equipment account, 22 percent to
the Airport Improvement Program, and 1 percent to the Research, Engineering, and
Development account (see table 1 below). FAA does not plan to submit its 2010
budget until April.




7
    Based on FAA classification of airports, non-hub airports enplane fewer than 0.05 percent of system-wide passengers,
    small-hub airports enplane more than 0.05 percent but fewer than 0.25 percent of system-wide passengers, medium-hub
    airports enplane more than 0.25 but fewer than 1 percent of system-wide passengers, and large-hub airports enplane more
    than 1 percent of system-wide passengers.


                                                                                                                         7
       Table 1. FAA Budget, FY 2007 Through FY 2009 ($ in Millions)
               Account                      FY 2007        FY 2008               FY 2009
                                             Actual        Enacted*              Request

  Operations                                $8,374           $8,740              $8,998
  Facilities & Equipment                    $2,518           $2,514              $2,724
  Airport Improvement                       $3,515           $3,515              $2,750
  Program
  Research, Engineering,                     $130             $147                $171
  and Development
  Total                                     $14,537         $14,915              $14,643
  Source: FAA’s FY 2009 Budget Request
* Figures may not add up due to rounding.

FAA is currently financed by two mechanisms: excise taxes deposited into the
Airport and Airway Trust Fund and a General Fund contribution. Over the past
5 years, the Trust Fund has paid for approximately 81 percent of FAA’s total budget
with the remaining 19 percent paid out of the General Fund.

Observations on the State of the Aviation Trust Fund
The current economic slowdown and airline capacity cuts have resulted in declining
Trust Fund revenues. According to Treasury Department data, Trust Fund revenues
declined by more than 11 percent during the first quarter of FY 2009. Over the past
5 years, Trust Fund tax revenues have steadily increased (see figure 1). However,
given the drop in traffic and the resulting decline in passenger taxes, it is almost
certain that future Trust Fund tax revenues will drop significantly during the balance
of FY 2009 and in FY 2010 as well.

               Figure 1. Airport and Airway Trust Fund Tax Revenues
                          FY 2003 to FY 2008 ($ in Millions)
    $14,000
                                                                                    $11,992
                                                                       $11,468
    $12,000                                                $10,590
                                                $10,314
                                $9,174
    $10,000       $8,684


      $8,000


      $6,000
                 FY 2003       FY 2004         FY 2005    FY 2006     FY 2007      FY 2008

In addition, past differences between FAA’s budget and the Trust Fund revenues and
General Fund contribution have been made up by drawing down the Trust Fund’s


                                                                                              8
uncommitted balance. However, these actions have depleted that balance to the point
where only a limited cushion of funding remains. As shown in figure 2 below, the
uncommitted Trust Fund balance has declined by more than 80 percent, from
$7.3 billion at the end of FY 2001 to $1.4 billion at the end of FY 2008. As a result,
this practice may no longer be a viable option for funding new and existing projects.

      Figure 2. Airport and Airway Trust Fund Uncommitted Balance
                     FY 2001 to FY 2008 ($ in Millions)
                $7,344
     $8,000
     $7,000
     $6,000                 $4,787
     $5,000                           $3,898
     $4,000                                     $2,447
     $3,000                                              $1,940    $1,773    $1,533    $1,435
     $2,000
     $1,000
        $0
              FY 2001    FY 2002     FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008


As Congress moves forward with FAA’s annual appropriations and multi-year
reauthorization legislation, it should monitor the status of the Trust Fund to ensure its
long-term solvency while ensuring sufficient funding for Agency programs.

ENHANCING AVIATION SAFETY AND MAINTAINING
PUBLIC CONFIDENCE IN FAA’S ABILITY TO PROVIDE
EFFECTIVE OVERSIGHT OF A RAPIDLY CHANGING
INDUSTRY
Over the last several years, the aviation industry has experienced the safest period in
history. This is due, in part, to the dedicated efforts of the professionals within FAA
and throughout the aviation industry. Last month, we saw a dramatic example of
aviation professionalism when U.S. Airways flight 1549 made an emergency landing
in the Hudson River, and, miraculously, all 155 passengers and crew survived largely
because of the skills of the pilot and crew. Nevertheless, airline consolidation and
downsizing continue to dramatically change the industry, and widely publicized
lapses in FAA oversight in 2008 emphasize the need for FAA to continually adapt its
oversight to further enhance safety. Key challenges for FAA include the following:

 • Maintaining public confidence in FAA’s oversight of air carriers and
   manufacturers.
 • Following through on longstanding commitments to improve oversight of external
   repair facilities.
 • Improving runway safety.

                                                                                                 9
Maintaining Public Confidence in FAA’s Oversight of Air Carriers and
Manufacturers
A significant challenge for FAA will be to maintain public confidence in its oversight
of air carrier operations. Our congressional testimonies in April 2008 8 before the
House of Representatives and the Senate disclosed serious lapses in FAA’s oversight
at Southwest Airlines (SWA). We reported that an FAA safety inspector had an
overly collaborative relationship with SWA and had violated FAA safety directives
by permitting the air carrier to operate 46 planes without required inspections for
fuselage cracks. FAA’s actions in this instance appeared to focus primarily on
promoting aviation over safety, which diminishes the public perception of FAA’s
ability to provide objective oversight.

In response to the safety lapses at SWA, on May 1, 2008, the Secretary of
Transportation commissioned a panel to examine FAA’s safety culture and its
approach to safety management. In its final report, issued in September, the panel
disclosed that it found FAA’s safety staff was “unambiguously committed” to its
safety mission but acknowledged that a remarkable degree of variation in regulatory
philosophies exists among inspectors, which could create widespread inconsistencies
in regulatory decision making.

The panel also determined that data from air carrier self-disclosures, such as the safety
directive self-disclosure used in the SWA incident, were not routinely analyzed at a
higher level within FAA. In our ongoing review of ATOS, we have found that self-
disclosure data are neither analyzed at a higher level within FAA nor analyzed and
used by FAA field offices to assess risks within air carrier maintenance programs.

We also found this to be true of another voluntary reporting program, called the
Aviation Safety Action Program, in which aviation employees self-report possible
regulatory violations. FAA collects summary information on the number of reports
submitted but has overlooked an opportunity to enhance the national margin of safety
because it does not collect and analyze the actual data on a national level to identify
potentially systemic safety issues. Both of these voluntary reporting programs have
the potential to provide valuable safety data, but FAA is not realizing their full
benefits. We plan to issue the results of our review of the Aviation Safety Action
Program later this year.

After the SWA incident, we conducted further reviews of safety directive compliance.
Early indications show this problem is occurring at other carriers as well.



8
    OIG Testimony Number CC-2008-046, “Actions Needed To Strengthen FAA’s Safety Oversight and Use of Partnership
    Programs,” April 3, 2008. OIG Testimony Number CC-2008-067, “Key Safety Challenges Facing the FAA,”
    April 10, 2008. OIG Testimony Number CC-2008-070, “Key Safety and Modernization Challenges Facing the FAA,”
    April 17, 2008.


                                                                                                              10
Our review at SWA also identified concerns regarding FAA’s failure to protect
whistleblowers from retaliation. For example, after a whistleblower voiced concerns
about SWA to FAA, an anonymous hotline complaint—which was never
substantiated—was lodged against him. FAA then removed the whistleblower from
duty for 5 months while he was under investigation. In 2007, our work at Northwest
Airlines found a similar problem with FAA’s handling of an inspector who reported
safety concerns. As with the inspector in the SWA case, FAA managers restricted an
experienced inspector from performing oversight on the carrier’s premises after a
complaint from the airline.

Our work at SWA and other carriers has also found weaknesses in FAA’s national
program for risk-based oversight, ATOS. At SWA, multiple missed ATOS
inspections allowed safety directive compliance issues in SWA’s maintenance
program to go undetected for several years. At the time of the SWA incident, FAA
inspectors had not completed 21 key inspections in at least 5 years.

As part of our ongoing ATOS review, we found that FAA oversight offices for seven
other major air carriers also missed key ATOS inspections. For example, we found
that critical maintenance inspection programs, such as Airworthiness Directive
Management, Continuing Analysis and Surveillance (CAS) System, and the
Engineering and Major Alterations Program, had been allowed to lapse beyond the
5-year inspection cycle.

Over the past 6 years, we have identified system-wide problems with ATOS, such as
inconsistent inspection methods across FAA field offices and incomplete inspections.
We recommended, among other things, that FAA strengthen its national oversight and
accountability to ensure consistent and timely ATOS inspections. However, FAA still
has not fully addressed this concern. We have recommended additional actions to help
maintain public confidence in FAA’s oversight of air carriers. FAA has agreed to
some of these, such as creating a national review team to conduct quality assurance
reviews of FAA’s air carrier oversight and implementing a process to monitor field
office ATOS inspections. However, FAA has not fully addressed other key
recommendations, including the following:

 • Periodically rotating supervisory inspectors to ensure reliable and objective
   air carrier oversight. FAA has stated that it is not financially feasible to rotate
   inspectors annually. Given budget constraints, FAA should consider other
   alternatives to ensure objective oversight. On February 5, FAA advised us that it
   plans to expand Flight Standards Evaluation Program audits to evaluate the safety
   culture of field offices and place special emphasis on those offices where the
   management team has been in place more than 3 years. FAA also stated that the
   Acting FAA Administrator has published a safety policy to reinforce
   management’s commitment to safety. This policy emphasizes that the United



                                                                                   11
   States public is the primary stakeholder and beneficiary of the FAA safety
   mission. We will continue monitoring FAA’s progress in this area.

 • Establishing an independent organization to investigate safety issues
   identified by FAA employees. On December 8, 2008, FAA created a new office
   within its Office of Chief Counsel to coordinate and provide independent quality
   control reviews of certain investigations. While this new office is independent
   from FAA’s Aviation Safety line of business, it does not actually conduct
   investigations of safety issues identified by FAA employees.                Rather,
   recommendations for resolutions of particular safety issues remain the
   responsibility of the applicable Aviation Safety office. The function of this office
   is to assess whether investigations and resolutions are fair and in compliance with
   established processes.

We will continue to monitor the progress and effectiveness of this office as part of our
ongoing aviation safety work. Some of our recent work has shown that FAA
continues to have problems performing effective, independent reviews of safety
allegations. For example, we found that an independent review of FAA oversight
activities at one carrier was not comprehensive. In addition, the review team provided
the report to the regional office rather than the FAA field office responsible for
resolving the problems. We will be reporting on this issue later this year.

Another challenge for FAA will be improving its oversight of new segments of the
aircraft industry. A key change occurring in the industry—which is expected to
continue over the next 2 decades—is the introduction of very light jets, or VLJs, into
the National Airspace System. VLJs are small aircraft with advanced technologies
that cost less than other business jets. In 2006, FAA certified the first VLJs, including
the Eclipse EA-500. While the industry was generally excited about the introduction
of this jet, some FAA employees were also concerned that it was pushed through the
certification process too quickly.

A significant issue overshadowing FAA’s certification of the EA-500 was the
inherent risks associated with a new aircraft utilizing new technology, produced by a
new manufacturer, and marketed with a new business model for its use. Because of
these factors, FAA should have exercised heightened scrutiny in certifying the
aircraft. Instead, our investigation results showed a combination of FAA actions and
inactions indicating that the Agency expedited the certification processes for the
EA-500 to meet a September 2006 deadline.

More importantly, because the EA-500 has advanced avionics and turbine engine
technology typical of large transport aircraft combined with the light weight of
smaller, private aircraft, it did not easily fit into FAA’s existing certification
framework. Therefore, FAA certified the EA-500 and other VLJs using certification
requirements for general aviation aircraft rather than the more stringent certification


                                                                                      12
requirements for larger transport aircraft. However, in a post-design certification,
“lessons-learned” internal review of the Eclipse project, FAA managers
acknowledged that the general aviation certification requirements were “inadequate to
address the advanced concepts introduced on the aircraft.” We understand that FAA
is developing a Notice of Proposed Rulemaking (NPRM) to clarify certification
requirements for VLJs. Given the issues surrounding the EA-500 certification, FAA
should expedite the NPRM to allay future concerns with this expanding industry
segment.

Following Through on Longstanding Commitments To Improve FAA
Oversight of External Repair Facilities
FAA continues to face challenges in identifying where critical aircraft maintenance is
performed. A key issue is that FAA’s risk-based oversight system does not include
critical repairs performed by non-certificated repair facilities. To address this issue, in
April 2007, FAA issued guidance that required inspectors to evaluate air carriers’
contract maintenance providers and determine which ones performed critical
maintenance and whether they were FAA-certificated repair stations. However, the
guidance did not provide effective procedures for inspectors to identify which
facilities were FAA-certificated or the type of maintenance each vendor performed for
air carriers. Therefore, FAA is now trying to develop a new method to capture these
data.

In addition, FAA established a system in FY 2007 for air carriers and repair stations
to report the volume of outsourced repairs. However, in September 2008, we
reported 9 that FAA’s system was inadequate because it did not require (1) mandatory
air carrier reporting, (2) an inclusive air carrier listing of all repair stations performing
repairs to critical components, or (3) FAA inspector validation of the information.
Without this information, FAA cannot be assured that it has the information needed to
determine where it should focus its inspections. FAA is reevaluating this system in
response to our report and expects to implement system improvements by the end of
March 2009.

Gathering adequate data to target inspections is important since FAA does not have a
specific policy governing when inspectors should initially visit repair stations
performing substantial maintenance for air carriers. Instead, FAA allows inspectors
to rely on the air carriers’ initial audits as a basis for approving those facilities for air
carrier use.

As a result, we found significant delays between FAA’s initial approval of repair
stations and its first inspections at those locations. For example, during a 3-year
period, FAA inspectors inspected only 4 of 15 substantial maintenance providers used
by 1 air carrier. Among those uninspected was a major foreign engine repair facility
9
    OIG Report Number AV-2008-090, “Air Carriers’ Outsourcing of Aircraft Maintenance,” September 30, 2008.


                                                                                                              13
that FAA inspectors did not visit until 5 years after it had received approval for carrier
use—even though it had worked on 39 of the 53 engines repaired for the air carrier.

FAA needs to require its inspectors to conduct initial and follow-up on-site
inspections, such as major airframe maintenance checks, at substantial maintenance
providers to assess whether they are complying with air carriers’ procedures. In
addition to their own inspections, FAA inspectors must ensure that air carriers and
repair stations have strong audit systems to correct identified deficiencies, as FAA
relies heavily on air carriers’ oversight. In response to our report, FAA is reviewing
its procedures for opportunities to strengthen its guidance. However, it does not
expect to complete these reviews until mid-2009.

Improving Runway Safety by Implementing New Technologies, Making
Airport-Specific Changes, and Reinvigorating FAA’s National Initiatives
Runway incidents continue to be a substantial threat to safety. The December 2008
accident at Denver International, when a Continental 737 veered off the runway into
an adjacent field and caught fire during take-off, underscores the seriousness of these
incidents. In fact, the last fatal commercial aircraft accident in the United States (in
2006) occurred because the pilots of Comair flight 5191 attempted to take off from
the wrong runway.

A specific concern is runway incursions (any incident involving an unauthorized
aircraft, vehicle, or person on a runway). 10 Since 2003, the number of runway
incursions has begun climbing again, reaching a high of 370 in FY 2007, a 13-percent
increase over FY 2004 (see figure 3-1 below). Under FAA’s new definition for
categorizing runway incursions, the number of runway incursions continues to rise
even more dramatically, with a 38-percent increase since FY 2004 (see figure 3-2
below). During FY 2008, 25 serious runway incursions occurred (where a collision
was barely avoided); this equates to about 1 serious runway incursion every 15 days.




10
     Effective October 1, 2007, FAA began categorizing runway incursions using the International Civil Aviation
     Organization (ICAO) definition. The new definition of runway incursions includes incidents that were previously defined
     by FAA as “surface incidents” (where a potential conflict did not exist).


                                                                                                                        14
                    Fi gure 3 -1. Runway I ncursi ons                         Figure 3-2 Runway Incursions
                Original Definiti on, FY 1 999 to FY 200 7                  New Definiti on, FY 2 004 to FY 200 8
         FY 1999                                 329
                                                                    FY 2004                                 730
         FY 2000                                        405
         FY 2001                                        407
                                                                    FY 2005                                   779
         FY 2002                                  339

         FY 2003                                 323                FY 2006                                     816
         FY 2004                                 326

         FY 2005                                 327                FY 2007                                         891

         FY 2006                                 330
                                                                    FY 2008                                               1009
        FY 2007                                         370

                   0     100      200      300      400       500             0     200     400     600     800     1000
        Source: FAA                                                 Source: FAA



Many see new technology as a key runway safety solution. However, our reviews of
three major FAA technologies 11 for improving runway safety disclosed serious
concerns about what can be effectively deployed within the next several years. The
uncertain timeline and emerging risks of FAA’s runway safety technologies
underscore the need for other near-term solutions.

In August 2007, FAA convened a task force that agreed on a short-term plan to
improve runway safety. Actions planned include conducting safety reviews at
airports based on runway incursion and wrong runway departure data, improving
airport signage and markings at the 75 busiest, medium- to large-sized airports, and
reviewing cockpit and air traffic clearance procedures. We are currently reviewing
the effectiveness of the task force’s actions to date.

FAA must also remain focused on reinvigorating national runway safety initiatives.
In response to the surge in runway incursions between FY 1999 and FY 2001, FAA
took national actions to prioritize runway safety, which resulted in a significant
decrease in incidents between 2001 and 2003 (from 407 to 323). However, some
national initiatives for promoting runway safety—such as publishing an annual
national plan for runway safety with specific goals for each line of business—have
subsequently waned as FAA met its overall goals for reducing runway incursions.
FAA needs sustained commitment and executive-level attention to renew those types
of important Agency initiatives.

As part of its efforts to improve runway safety, FAA also needs to continue to
aggressively pursue improvements to Runway Safety Areas (RSA). FAA requires
that airports have cleared space around runways to permit safe landings in the event
that pilots veer off or undershoot the runway during landings. However, our recent


11
     These three technologies are ASDE-X, ADS-B, and Runway Status Lights.


                                                                                                                                 15
work shows that 11 large U.S. airports have runways that do not have sufficient space
because of major man-made, natural, and environmental challenges.

In addition, more than 40 percent of the RSAs we reviewed have navigational aids
(e.g., airport lighting systems) that need to be either modified or relocated outside the
RSA. Until these issues are fully addressed, aircraft will remain vulnerable to damage
and, more importantly, their passengers will remain at risk of potential injury from
accidents on runways with substandard RSAs. We plan on issuing our final results
next month.

CHALLENGES FACING FAA IN MODERNIZING THE
NATIONAL AIRSPACE SYSTEM AND TRANSITIONING TO
NEXTGEN IN THE NEAR AND MID TERM
FAA will be challenged to keep ongoing projects on track, maintain aging facilities,
and develop and implement NextGen initiatives. In 2009, FAA plans to spend
$2.7 billion for capital funding—an increase of 8 percent over last year’s enacted
level. FAA is starting a new chapter in modernization with NextGen, and the
Agency’s capital account is now being shaped by these initiatives. Between FY 2008
and FY 2013, FAA plans to spend $18 billion for capital efforts, including
$5.2 billion specifically for NextGen. We note that much of the projected funding for
NextGen will focus on developmental efforts, including demonstration projects. 12

FAA plans to spend more that $630 million in 2009 on NextGen-related programs,
which include Automatic Dependent Surveillance-Broadcast (ADS-B) and System-
Wide Information Management (SWIM). Figure 4 below illustrates FAA’s planned
investments in ongoing projects and NextGen initiatives from FY 2008 to FY 2013.




12
     Developmental efforts are funded through the Engineering, Development, Test, and Evaluation portion of the capital
     account. These efforts are projected to amount to $2.4 billion through FY 2013, which is a significant portion of the
     amount dedicated to NextGen spending.


                                                                                                                      16
                    Figure 4. FAA Capital Funding for FY 2008 to FY 2013
                                                     ($ Totals in Millions)
     $4,000.00
                                                                                                    NextGen funding includes
                                                                                        $3,524.06   programs such as ADS-
     $3,500.00               NextGen Funding                                $3,292.11               B, SWIM, DataComm,
                                                                                                    and development
                                                                $3,123.75
                             Remaining F&E                                                          projects.

     $3,000.00                                 $2,802.06
                                 $2,723.51
                 $2,513.61                                                              $1,472.09
                                                                            $1,198.10
                                                                $1,034.30                           Remaining Facilities
     $2,500.00                                  $647.30
                 $187.72           $631.10                                                          and Equipment (F&E)
                                                                                                    includes funding for
                                                                                                    existing projects,
     $2,000.00                                                                                      facilities, and support
                                                                                                    service contracts.


     $1,500.00

                 $2,325.89                                                                          Total NextGen
                                  $2,092.41    $2,154.76        $2,089.45   $2,094.01   $2,051.97   funding for FY 2008
     $1,000.00
                                                                                                    to FY 2013 from the
                                                                                                    capital account is
                                                                                                    projected to be
      $500.00                                                                                       $5.2 billion.



         $0.00
                  FY 2008          FY 2009      FY 2010          FY 2011    FY 2012      FY 2013
                 (Enacted)       (Requested)
                                                       Fiscal Year




Source: FAA

In addition to capital spending, FAA plans to spend $362 million in research,
engineering, and development funds through FY 2013 for NextGen. The projects
include air-ground integration, wake turbulence, and environmental research.

Progress and Problems with FAA Acquisitions
In April 2008, we reported on progress and problems with 18 major FAA acquisitions
valued at $17.5 billion. Overall, we are not seeing the significant cost growth and
schedule slips with FAA major acquisitions that occurred in the past. This is because
FAA has taken a more incremental approach to managing major acquisitions. When
comparing revised baselines, only 2 of the 18 projects we reviewed have experienced
additional cost growth ($53 million) and delays (5 years) since our last report in
2005. 13 However, from program inception, six programs have experienced cost
growth of nearly $4.7 billion and schedule delays of 1 to 12 years.

While FAA’s incremental approach may reduce risk in the near term, it has left
several programs with no clear end-state and less visibility into how much they will
ultimately cost. A case in point involves modernizing facilities that manage traffic in
the vicinity of airports, which is commonly referred to as “terminal modernization.”

13
     OIG Report Number AV-2005-061, “Status of FAA’s Major Acquisitions: Cost Growth and Schedule Delays Continue
     To Stall Air Traffic Modernization,” May 26, 2005.


                                                                                                                               17
We are concerned that there is no defined end-state for terminal modernization, and
past problems with developing and deploying STARS leave FAA in a difficult
position to begin introducing NextGen capabilities. Future terminal modernization
costs will be shaped by (1) NextGen requirements, (2) the extent of FAA’s terminal
facilities consolidation, and (3) the need to replace or sustain existing (legacy)
systems that have not been modernized.

Keeping Existing Systems on Track Is Important as Many Will Provide
Platforms for NextGen
According to FAA, approximately 30 existing capital programs will serve as
“platforms” for NextGen. For example, the $2.1 billion En Route Automation
Modernization (ERAM) program, which provides new hardware and software for
facilities that manage high-altitude traffic, is a linchpin for the NextGen system.
Because ERAM is expected to serve as a foundation for NextGen, any schedule
delays will affect the pace of introducing new capabilities. Currently, ERAM
software requirements related to NextGen are still uncertain, but costs are expected to
be in the billions of dollars.

Two years ago, in February 2007, we recommended that FAA examine existing
projects to determine if they were still needed and, if so, what adjustments would be
required.14 FAA concurred with our recommendation and stated that it had begun this
assessment.     To date, however, FAA has not made major adjustments to
modernization projects to accelerate NextGen.

Over the next 2 years, FAA must make more than 23 critical decisions about ongoing
programs. These decisions have significant budget implications and will affect all
major lines of the modernization effort with respect to automation, communications,
navigation, and surveillance. For example, FAA will have to address what changes
are needed to modernize its terminal facilities and whether it will pursue a common
automation platform for terminal and en route environments in the future.

FAA Faces Significant Challenges with Key NextGen Programs
FAA has established initial cost and schedule baselines for the first segments of two
key NextGen initiatives: ADS-B and SWIM. Our work shows that both programs
face considerable risks and require significant oversight.

ADS-B: In August 2007, FAA awarded a service-based contract for the ADS-B
ground infrastructure worth $1.8 billion (if all options are exercised). FAA estimates
that ADS-B will cost about $1.6 billion in capital costs for initial implementation
segments through 2014, including a nationwide ground system for receiving and


14
     OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To Reduce Risks With the
     Next Generation Air Transportation System,” February 12, 2007.


                                                                                                                18
broadcasting ADS-B signals. For FY 2009, FAA has requested $300 million in
capital costs for ADS-B, its largest acquisition program budget line item.

A key challenge facing FAA—and NextGen implementation—is realizing the full
benefits of ADS-B. FAA plans to fully implement ADS-B Out in the 2020 timeframe,
which will require aircraft to broadcast their position to ground systems. However,
most capacity and safety benefits from the new system will come from ADS-B In,
which will display information in the cockpit for pilots. FAA has not yet finalized
requirements for ADS-B In.

Our work shows that FAA must address several risks to realize the benefits of
ADS-B. These include: (1) gaining stakeholder acceptance and aircraft equipage,
(2) addressing broadcast frequency congestion concerns, (3) integrating with existing
systems, (4) implementing procedures for separating aircraft, (5) assessing potential
security vulnerabilities, and (6) finalizing requirements for ADS-B In and new cockpit
displays.

Given FAA’s history with developing new technologies and its approach to ADS-B,
in which the Government will not own the ground infrastructure, this program will
require a significant level of oversight. We will report on ADS-B later this year.

SWIM: In June 2007, FAA baselined the first 2 years of segment 1 of SWIM
(planned to occur between FY 2009 and FY 2010) for $104 million. FAA’s latest
Capital Investment Plan cost estimate for SWIM is $285 million. We are currently
examining the overall status of SWIM and the risks facing a nationwide deployment.

Current challenges include determining requirements and interfaces with other FAA
systems, including ERAM and Air Traffic Management programs. Moreover, FAA
must integrate SWIM with other Federal agencies’ operations to realize NextGen
benefits and develop a robust cyber security strategy and design.

We found that FAA is pursuing SWIM in a decentralized way and providing other
programs with funds to develop interfaces with the system. FAA still needs to
establish the architecture, strategy, and overall design for SWIM. FAA has yet to
determine additional segments and the cost to fully implement the program.

FAA Must Refine the Mid-Term NextGen Architecture
Last April, we recommended—and FAA concurred—that FAA conduct a “gap
analysis” of the current National Airspace System and the vastly different NextGen
system and develop an interim architecture for the 2015 timeframe. These actions
would help highlight transition issues and establish requirements that could be used to
develop reliable cost and schedule parameters for NextGen. FAA is focusing
considerable attention on mid-term goals for NextGen, which are planned for the



                                                                                    19
2018 timeframe. However, we found that FAA needs to address fundamental issues
with three key elements to achieve these goals.

     • NextGen Implementation Plan: FAA’s January 2009 plan 15 provides a
       framework for what NextGen will resemble in 2018 and reflects the need to link
       FAA and stakeholder investments. However, FAA and stakeholders point out that
       the plan does not yet reflect a consensus on how to move forward, and much work
       is required to set priorities, quantify expected benefits, address integration issues,
       and clarify time and location of equipment needs. In addition, the plan will need
       to illustrate the operational, regulatory, policy, and procedural issues that need to
       be resolved to implement NextGen capabilities. Also, stakeholders point out that
       the plan does not yet clearly assign responsibility, authority, or accountability for
       mid-term initiatives.

     • Gap Analysis of the Current and NextGen Systems: This effort is important
       because FAA intends to rely on existing automation systems to provide the basis
       for NextGen through the mid-term phase of the effort. A key question focuses on
       the most cost-effective way to implement changes for displays and computers that
       controllers use to manage traffic in the vicinity of airports. FAA is conducting this
       gap analysis, and Agency officials expect to complete the effort this summer.

     • NextGen Mid-Term Architecture: FAA has made progress in developing
       components of a general blueprint for the 2018 timeframe. It has also developed
       “road maps” for automation, communication, navigation, and surveillance efforts.
       FAA’s current blueprint highlights more than 340 key decisions that FAA must
       make to reach the envisioned mid-point NextGen architecture. However, FAA has
       not yet established firm requirements that can be used to develop the cost and
       schedule estimates for modifications to existing programs or new acquisitions.
       FAA’s documents caution that ground systems continue to be developed from the
       bottom up, which results in mission and performance gaps. Further, air and
       ground elements are not yet synchronized, and FAA must determine which trade-
       offs to make regarding which capabilities will reside in aircraft versus FAA
       ground systems. FAA officials told us they expect to complete these efforts later
       this summer.

To help chart a course for NextGen in 2018, FAA tasked RTCA (a joint
Government/industry forum) 16 to forge a community-wide consensus on what should
be implemented and what actions will be needed to realize benefits. The RTCA task
force has an ambitious agenda; it is expected to make recommendations to FAA and
help the Agency prioritize efforts, frame the business case for new systems (for FAA
15
     FAA’s NextGen Implementation Plan, January 30, 2009.
16
     Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc. is a private, not-for-profit
     corporation that develops consensus-based recommendations regarding communications, navigation, surveillance, and air
     traffic management (CNS/ATM) system issues. It functions as a Federal Advisory Committee.


                                                                                                                      20
and airspace users), and define the necessary actions to achieve benefits in 2018. The
task force plans to complete its work this summer.

NextGen Implementation Presents Congress with Important Policy
Questions
NextGen planning documents call for users to equip with a range of new avionics
including ADS-B, data link for communications for controllers and pilots, and new
navigation equipment. Stakeholders argued that $4 billion of stimulus funds should
be used to equip aircraft and accelerate NextGen efforts, including $2 billion
specifically for ADS-B.

As stakeholders point out, there is a precedent for helping airspace users equip
specifically with ADS-B avionics. FAA purchased ADS-B avionics for operators in
Alaska as part of the Capstone initiative. 17 This provided a base of properly equipped
aircraft and allowed FAA to examine the costs and benefits of the new technology.

In a recent report 18 on implementing ADS-B, stakeholders noted that incentives for
ADS-B deployment could take a number of forms. These include purchasing
equipment for operators, an investment tax credit, an adjustment to current excise
taxes for ADS-B-equipped aircraft, or research and development tax credits
specifically for avionics manufacturers. However, FAA has never managed such a
large effort to equip aircraft in the continental United States.

Whether or not such incentives should be used is clearly a policy decision for
Congress. A clear understanding of exactly what the incentives would be used for is
needed. This is important because FAA has not finalized the requirements for key
capabilities, such as ADS-B In. In our opinion, a full consideration of the strengths
and weaknesses of various incentives as well their timing and potential impact is
important. Further, FAA could use incentives to demonstrate and refine NextGen
capabilities and provide detailed information on how to certify equipment, such as
new cockpit displays.

Sustaining FAA’s Vast Network of Aging Facilities
A key cost driver for NextGen is determining to what extent FAA realigns or
consolidates air traffic control facilities. This has significant cost implications for the
number of controller displays and related computer equipment needed to manage


17
   The Capstone Project was a joint industry and FAA research and development effort to improve aviation safety and
   efficiency in Alaska. Under Capstone, FAA provided avionics equipment for aircraft and the supporting ground
   infrastructure. The Capstone Project operated from 1999 to 2006, and its success in Alaska laid the groundwork for the
   nationwide deployment of ADS-B.
18
   Report from the ADS-B Aviation Rulemaking Committee to the Federal Aviation Administration, “Recommendations on
   Federal Aviation Administration Notice No. 7–15, Automatic Dependent Surveillance—Broadcast (ADS–B) Out
   Performance Requirements to Support Air Traffic Control (ATC) Service; Notice of Proposed Rulemaking,”
   September 26, 2008.


                                                                                                                     21
traffic in the vicinity of airports. In our December 2008 report, 19 we found that many
FAA air traffic control facilities have exceeded their useful lives, and their physical
condition continues to deteriorate. In some cases, facilities deteriorated so badly that
they required urgent and repeated actions. While the average facility has an expected
useful life of approximately 25 to 30 years, 59 percent of FAA facilities are over
30 years old (see table 2).

                          Table 2. Average Age of FAA Facilities
                                Type of Facilities                  Average Age
                     Air Traffic Control Towers                       29 years
                     Terminal Radar Approach Control
                                                                       26 years
                     Facilities
                     En Route Control Centers                          43 years
                    Source: FAA

FAA points out that flexible ground communication networks do not require facilities
to be near the traffic they manage. FAA often cites its aging facilities and the related
expense of maintaining such a large number of facilities to justify consolidating the
air traffic control system into a smaller number of facilities. However, there are
technical and security prerequisites for major consolidation, such as implementing
new “voice switching” technology to allow for more flexible communication and
enhanced automation.         FAA’s 2007 reauthorization proposal called for a
“Realignment and Consolidation of Aviation Facilities Commission” to conduct an
independent review and make recommendations to the President. Last year, the
House and Senate reauthorization proposals (H.R. 2881 and S. 1300) also recognized
the issue of consolidation and the need for further examination.

FAA plans to spend $17 million in FY 2009 to examine various alternatives for
revamping its facilities. FAA should ensure that this analysis clearly addresses the
technological and security prerequisites as well as key cost drivers, benefits, and
logistical concerns associated with consolidations so decision makers in Congress and
the Administration will know what can be reasonably accomplished. This is a critical
action item because until key, strategic decisions are made regarding consolidations,
FAA will be unable to define its long-term funding requirements for the management
and maintenance of its air traffic control facilities.

FAA Actions Needed To Help Focus Mid-Term NextGen Efforts and Shift
from Planning to Implementation
We have made numerous recommendations to FAA to help it move forward with
NextGen. These include developing an interim architecture, assessing the skill mix
with respect to necessary systems integration and contracting, and focusing human

19
     OIG Report Number AV-2009-012, “FAA’s Management and Maintenance of Air Traffic Control Facilities,”
     December 15, 2008.


                                                                                                      22
factors research to ensure concepts can be safely implemented. At this time, FAA
must move beyond planning and shift to implementation. To do so, FAA needs to
take the following actions:

• Complete the gap analysis of the current and NextGen systems as promised
  and refine the NextGen mid-term architecture. These two efforts are important
  because FAA intends to rely on existing automation systems to provide the basis for
  NextGen through the mid-term phase of the effort. Until FAA establishes the
  detailed changes needed to transition to NextGen, it will be difficult to determine
  requirements that can be used to develop reliable cost and schedule estimates to
  achieve NextGen’s mid-term goals.

• Establish priorities and Agency commitments with stakeholders and reflect
  them in budget requests. It remains difficult for decision makers to determine
  what to invest in first from the wide range of operational improvements in NextGen
  planning documents. Stakeholders have asked for a clear articulation of the timing,
  location, and assignment of responsibility for NextGen capabilities. This past year,
  FAA has worked to shape priorities. However, the Agency must do more and work
  with stakeholders to identify the proper sequencing of efforts. Also, stakeholders
  have asked FAA to clearly state mid-term Agency and operator commitments in its
  NextGen Implementation Plan. FAA should continually work to provide this
  Subcommittee with a clear understanding of its NextGen priorities and
  commitments and reflect them in budgets and plans.

• Manage mid-term initiatives as portfolios and establish clear lines of
  responsibility, authority, and accountability for NextGen efforts. FAA must
  manage NextGen capabilities as portfolios because several systems, new
  procedures, and airspace changes funded through different accounts will be required
  to deliver benefits. FAA is developing various portfolios and understands the need
  to manage them in an integrated fashion. However, as an FAA study points out,
  FAA’s Acquisition Management System was not designed for managing NextGen
  investments. 20 Rather, FAA’s system focuses on baselines and specific capital
  programs—not a collection of investments. FAA recognizes that it must modify its
  system to effectively manage NextGen efforts. FAA could also strengthen its
  NextGen Implementation Plan by clearly assigning responsibility, authority, and
  accountability for specific NextGen portfolios.

• Focus attention on the relief that various NextGen technologies can provide to
  already congested airports in major metropolitan areas, like New York and
  Chicago. An important metric for NextGen is to what extent FAA can improve
  airport arrival rates under various weather conditions. FAA recognizes the
  importance of this and is shifting resources to this issue. However, FAA’s efforts to
20
     “Independent Assessment of FAA Acquisition Management System,” April 22, 2008.


                                                                                      23
     examine “high-density operations” are in the very early stages, and planning
     documents and budget requests thus far do not detail how individual NextGen
     systems can specifically boost airport capacity and reduce delays. Decision makers
     and stakeholders need to know what elements—ADS-B, new routes, and data link
     communications for controllers and pilots—are essential to improve capacity at
     already congested airports.

• Acquire the necessary skill mix to effectively manage and execute NextGen. In
  response to our February 2007 report, FAA commissioned the National Academy of
  Public Administration to assess the skill sets needed for NextGen. In a September
  2008 report, the Academy identified 26 competencies where FAA lacks both
  capacity and capabilities to accomplish NextGen implementation. 21 These include
  experience in large-scale systems acquisition and integration. FAA has identified an
  additional 175 staff positions that it plans to fill in 2009 and another 162 positions
  for 2010 to address identified skill requirements.

• Develop a realistic plan for implementing ADS-B and realizing the air-to-air
  benefits of the new technology. FAA has a contract in place for ADS-B and has
  published an NPRM. The NPRM calls for users to equip with ADS-B Out in the
  2020 timeframe. FAA has received comments from 177 organizations or
  individuals about the details of the NPRM. While most agree that ADS-B is an
  important part of the future, some raised concerns about requirements, the cost of
  equipage, and lack of clear benefits—all legitimate issues that will need to be
  resolved. To clarify these issues, FAA must expedite efforts to establish
  requirements for ADS-B In and cockpit displays.

• Assess “implementation bandwidth” and develop transition benchmarks.
  FAA’s ability to implement multiple capabilities in a given time period needs to be
  assessed. There are limits to what can be accomplished given the scope of change
  envisioned and ongoing efforts. For example, FAA has staggered key NextGen
  capabilities, such as data link communications, to wait for the completion of ERAM
  in the 2012 timeframe. Further, FAA and industry need realistic transition
  benchmarks that point to when new training (for controllers and pilots), equipment
  (new avionics and ground systems), and procedures need to be in place at specific
  locations.




21
     Report by a panel of the National Academy of Public Administration, “Identifying the Workforce to Respond to a
     National Imperative - The Next Generation Air Transportation System (NextGen),” September 2008.


                                                                                                               24
BOLSTERING KEY FAA SAFETY WORKFORCES
FAA continues to face significant attrition in two of its most critical safety
workforces: air traffic controllers and aviation safety inspectors. Over the next
decade, FAA must maintain enough professionals with the right skill mix to ensure
the safe and efficient operations of the National Airspace System. Key challenges for
FAA include the following:

 • Hiring and training the next generation of air traffic controllers.
 • Addressing controller human factors.
 • Ensuring a sufficient number of appropriately placed safety inspectors to address a
   divergent aviation environment.

Hiring and Training the Next Generation of Air Traffic Controllers
Over the next decade, FAA plans to hire and train nearly 17,000 controllers to replace
those who were hired after the 1981 strike and are now retiring. Ensuring there are
enough certified controllers at FAA’s more than 300 air traffic control facilities will
remain a significant watch item for the Department and Congress. Since 2005,
4,989 controllers have left the workforce (2,657 of these were retirees). The total rate
of attrition for FY 2005 through FY 2008 was 16 percent higher than FAA had
projected.

However, we note that for FY
                                                                          Figure 5. Controller Attrition and Hiring,
2008 retirements were below                                               Projected and Actual (FY 2005 – FY 2008)
FAA’s projection for the first time
                                          Number of Controllers




                                                                  4,000
                                                                                        4,989                       5,646
since FAA began projecting                                        3,500
                                                                            4,304                        4,628
                                                                  3,000
retirements in 2004 (781 actual                                   2,500

versus 809 projected).                                            2,000
                                                                  1,500
                                                                  1,000
FAA has accelerated its hiring                                     500
                                                                     0
efforts to keep pace with attrition.                                      Projected    Actual           Projected   Actual
Since 2005, FAA has hired                                                  Attrition   Attrition         Hiring     Hiring
5,646 new controllers—22 percent
more than projected (see figure 5).

With the surge in new hires over the last 4 years, FAA is facing a fundamental
transformation in the composition of its controller workforce. While the overall size
of the controller workforce remained relatively constant from April 2004 to
September 2008, the number of controllers in training increased by nearly 72 percent,
while the number of fully Certified Professional Controllers (CPC) decreased by
nearly 11 percent (see table 3 below).




                                                                                                                       25
                          Table 3. Controller Workforce Composition
                             Date              CPCs           Controllers               Total
                                                             in Training*
                     April 2004                12,328             2,209                 14,537
                     September 2008            11,007             3,800                 14,807
                     Difference               (-1,321)           +1,591                  +270
                    *We chose 2004 as a benchmark for comparison purposes since 2004 was the last
                     year we audited this program and because 2004 was the year FAA first published its
                     Controller Workforce Plan.

Controllers in training now represent nearly 26 percent of the workforce (up from
15 percent in 2004). However, that percentage can vary extensively by location—
from as little as zero percent (e.g., Pittsburgh air traffic control tower) to as much as
47 percent (e.g., Orlando International air traffic control tower).

A major challenge in addressing controller attrition will be training new controllers to
the CPC level at their assigned locations. In June 2008, we issued our second report
on FAA’s controller facility training program since 2004. 22 FAA is taking actions at
the national level to get this important program on track. For example, FAA is adding
more training simulators at towers and increasing use of contractor training support—
from 53 facilities in 2004 to 190 facilities in 2007. Many of FAA’s efforts, however,
are still in the early stages.

Our June 2008 report identified problems that we also found in 2004—that the facility
training program continues to be extremely decentralized and the efficiency and
quality of the training varies extensively from one location to another. We
recommended the following actions to FAA, and FAA concurred:

     • Establish realistic standards for how many developmental controllers facilities can
       accommodate.
     • Ensure the standards developed address individual facilities’ training capacity.
     • Continue to encourage veteran controllers to transfer to busier, higher-level
       facilities.
     • Implement key initiatives FAA first proposed in 2004 to improve facility training.

In September 2008, FAA made a significant change to its training program by
awarding a 10-year, $437 million contract to the Raytheon Technical Services
Company (Raytheon) to support the Agency’s training of newly hired and existing air
traffic controllers. The contract calls for Raytheon to provide training support at both


22
     OIG Report Number AV 2008-055, “Review of the Air Traffic Controller Facility Training Program,” June 5, 2008.


                                                                                                                      26
the FAA Academy in Oklahoma City, Oklahoma, and at air traffic facilities
nationwide.

According to the contractor, the new program, known as the Air Traffic Controller
Optimum Training Solution (ATCOTS), will modernize the training process by
utilizing up-to-date technologies to train controllers, adjusting the training curriculum,
and introducing a modeling and simulation tool that will predict training and staffing
bottlenecks, thus allowing FAA to be more proactive in solving workforce training
issues.

Given the importance of this new contract, Chairman Costello has requested that we
review the ATCOTS training program, including the financial and contractual aspects
of the program. Specifically, we will examine how the training program will differ
from what is currently provided to the controller workforce and whether adjustments
to the program and contract during its early stages are warranted. We plan to begin
this review next month.

Addressing Controller Human Factors
As attrition increases, FAA must also continue addressing controller human factor
issues (fatigue and attention). Congress has expressed concerns regarding controller
human factor issues since the influx of new controllers will need both technical and
human factors training. For example, in April 2003, we reported that almost
90 percent of controller operational errors (when a controller allows two aircraft to get
too close together either on the runway or in the air) were due to human factors issues
rather than procedural or equipment deficiencies. 23 Since our review, FAA has made
progress with a training program designed to sharpen and maintain controllers’ mental
skills most closely associated with visual attention and scanning: the National Air
Traffic Professionalism Program.

However, FAA also needs to continue focusing on training controllers about fatigue.
In its investigation of Comair flight 5191, the National Transportation Safety Board
(NTSB) expressed concerns that the lone controller on duty at the time of the accident
had only slept about 2 hours before his shift (although he had 8 hours off between
shifts). As a result of its investigation, the NTSB added controller fatigue to its “Most
Wanted List” in 2007.

At the request of Senator Durbin of Illinois, we are reviewing factors that could affect
controller fatigue at Chicago O’Hare Tower, Chicago TRACON, and Chicago Center.
So far, we have identified several potential fatigue factors. These include scheduling
practices with minimal time between shifts, conducting on-the-job training, working
6-day weeks (overtime), and working an operational position for extended periods of
time. We are working to determine the extent to which these factors are occurring

23
     OIG Report Number AV-2003-040, “Operational Errors and Runway Incursions,” April 3, 2003.


                                                                                                 27
and what efforts FAA is taking to address them. We plan to issue our results this
spring.

At the request of Chairman Costello, we are also reviewing the rate and causes of
controller training failures (developmental controllers who fail training either at the
FAA Academy or at their assigned facility). FAA reports that the overall training
failure rate for FY 2007 was about 10 percent of all trainees. However, this rate
includes both newly hired controllers as well as veteran controllers transferring to new
locations. Given the huge surge in new controllers, those metrics should be tracked
separately so FAA can measure its progress in training newly hired controllers. We
also found that data used by FAA to compile the training failure rate were inaccurate,
with some facilities not entering information into FAA’s tracking system for months
at a time. We plan to issue those results this spring as well.

Ensuring a Sufficient Number of Appropriately Placed Safety Inspectors
To Address a Divergent Aviation Environment
Effective oversight by FAA safety inspectors is vital to ensuring that the industry
continues its impressive safety record. As shown in table 4, this oversight covers a
vast network of operators and functions, which make up the largest, most complex
aviation system in the world (see table 4).

                       Table 4. FAA Inspectors’ Workload
              Major Air
                                               Flight Instructors
              Carriers                116                                   92,207
                                               FAA Designee
              Repair Stations
                                    4,957      Representatives               6,100

              Active Pilots      722,208       Aircraft                    319,549
                                               FAA licensed
              Approved              1,647      Mechanics and
              Manufacturers                    Repairmen                   363,217

             Source: FAA Aviation Safety Workforce Plan as of March 2008

FAA’s approximately 4,100 inspectors must oversee both domestic and foreign
aspects of these operations. This task is made more difficult by the rapidly changing
aviation environment. One issue that warrants attention is FAA’s ability to develop
and implement a reliable staffing model to ensure it has a sufficient number of
inspectors where they are most needed.

In past years, FAA has made at least two attempts to develop a staffing model to
determine the number of inspectors needed and the best locations for placement.
Neither model, however, provided FAA with an effective approach for allocating
inspector resources.



                                                                                     28
At the direction of Congress, the National Research Council evaluated FAA’s current
methods for allocating inspector resources in September 2006. 24 This study reported
similar concerns that we identified in past reports—that FAA’s current method of
allocating inspectors is antiquated and must be redesigned to effectively target
inspectors to those areas of higher risk.

The Council also reported that the changing U.S. and global aviation environments
will be key drivers of future inspector staffing needs. For example, airlines’
outsourcing of aircraft maintenance, FAA’s shift to a system safety oversight
approach, and safety inspectors’ attrition and retirement are all important factors that
must be considered in determining staffing needs.

It has been over 2 years since the National Research Council study, and FAA has still
not implemented the new staffing model. However, FAA is developing the new
model and plans to begin using it by October 2009. Last year, FAA’s hiring efforts
kept pace with retirements, and FAA ended the year with 121 inspectors over its
FY 2007 levels. However, nearly half of the workforce will be eligible to retire
within the next 5 years. It is not reasonable to expect FAA to have an inspection
workforce that is large enough to oversee every aspect of aviation operations;
therefore, making measurable progress toward a new staffing model is a key watch
item, and we will continue to monitor this important initiative.

FINANCING FUTURE AIRPORT DEVELOPMENT
Delays in Airport Improvement Program Grants Could Impact Airports’
Ability To Enhance Safety, Maintain Infrastructure, and Expand Capacity
In the coming months, Congress and aviation stakeholders will discuss important
questions about FAA’s reauthorization. Because Vision 100 expired at the end of
FY 2007, and a long-term reauthorization is not yet in place, funding targets do not
exist for FY 2009 and beyond. Congress is now faced with the challenge of
determining AIP funding levels for FY 2010.

The AIP supports the airport system by providing funds to primarily enhance safety
and security, maintain the infrastructure, increase capacity, and mitigate airport noise
in surrounding communities. AIP authorized funding has steadily increased over the
last 9 years. Since 2001, the AIP has been authorized at $3.2 billion or higher each
year. In FY 2008, through a series of continuing resolutions, Congress provided FAA
with $3.5 billion in AIP funding. For FY 2009, as part of a continuing resolution,
Congress provided FAA with $1.5 billion in AIP funding but did not extend the AIP
contract or obligation authority to issue new AIP grants beyond March 6, 2009.
Unless further funding is provided before March 6, FAA will no longer have the
contract authority to issue new AIP grants.
24
     National Research Council Study: Staffing Standards for Aviation Safety Inspectors, September 20, 2006.


                                                                                                               29
Aviation congestion continues to be a top priority for the Secretary. However, it is
increasingly difficult for airports and FAA to meet this challenge with no AIP
authorization. The uncertainty of future AIP grant authority makes it difficult for the
Nation’s airports to determine when, or if, they will receive their AIP grants.

Smaller airports are more vulnerable because they have fewer revenue sources than
large airports. Many smaller airports must suspend projects until they are assured of
AIP grant funds. Lengthy delays in the release of AIP grants could prevent airports
from taking full advantage of the construction season and delay important safety and
capacity projects that could reduce congestion in the busy travel season ahead.

Passenger Facility Charge Collections Are Declining
In addition to AIP funds, passenger facility charges (PFC) have become an important
funding mechanism for airports. Between 1992 and 2008, FAA approved the
collection of $65.8 billion in PFCs. Of this amount, airports have collected an
estimated $27.6 billion, with another $2.9 billion anticipated for 2009. In
comparison, airports received about $42.1 billion in AIP grants between 1992 and
2008.

Overall, airports anticipate using PFC collections to finance landside projects (e.g.,
terminals, security, and land), bond                Figure 6. Approved PFC Uses by
interest payments, airside projects (e.g.,                   CYs 1992 to 2008
runways, taxiways, and equipment),
                                                                    Denver
access roadways, noise abatement, and                     Noise
                                                                     5%         Landside
the Denver International Airport (see              Access     4%
           25                                        6%                           36%
figure 6).

However, volatile fuel prices and a
                                                                        Airside
softening economy have led to airline                                       18%             Interest
service reductions and capacity cuts,                                                        31%
which have caused declines in
                                                                               Percent of $65.8 Billion Approved
passenger traffic. This, in turn, has led
to the decline in the stream of PFC
revenues, which could inhibit future
airport development.

Specifically, when airports experience reductions in passenger traffic, PFC collections
automatically decline. PFCs are a source of funding that airports largely depend on to
finance capital improvement projects that are generally ineligible to receive AIP funds
(such as terminal improvements). For example, at one medium-hub airport we
visited, PFCs declined by 22 percent (or about $7.1 million) during 2008 when

25
     FAA tracks Denver’s PFC separately due to its large size and because it was used to fund the new airport, not specific
     projects.


                                                                                                                       30
compared to the same period in 2007. This was due to airlines either going out of
business or ceasing operations. Without a steady stream of PFCs or other revenue
options to offset the loss of PFCs (e.g., increase airlines rates and charges), some
airports will find it increasingly difficult to keep capital projects’ milestones and costs
on track.

Currently, PFCs are capped at $4.50 per segment of flight (a maximum of $18.00 on a
round trip). The current cap on PFCs is an important matter for this Subcommittee
and has significant implications for major airports’ capital expenditure plans. In fact,
Chicago O’Hare International Airport anticipates future increases in the cap as part of
its financing plans for the O’Hare Modernization Program, a multi-year, multi-phased
program with an estimated cost of $6.6 billion (in 2001 dollars).

The FAA Reauthorization Act of 2007, as passed by the House (H. R. 2881), would
have increased the PFC ceiling to $7.00 per trip segment. Airport associations
support this increase in the PFC ceiling. However, one airline association has stated
its concern that approval for airport improvement projects, especially those funded
through the PFC program, does not provide airlines with a meaningful role in those
critical decisions. Determining how future airport projects are funded and what the
levels of AIP funding and PFC charges should be are important issues as the Congress
decides how best to finance FAA.

Unstable Financial Markets Have Made It Difficult for Airports To Issue
Airport Bonds
Proceeds from issuing airport bonds are used to finance runways, taxiways, and other
airport facilities that benefit airport users and the public. According to the Airports
Council International, airport bonds represent the largest funding mechanism for
airport development and many are backed in part by PFCs. Also, according to a
major investors’ service, debt backed solely by a pledge of PFCs is of particular
concern, because the supporting revenues are directly tied to enplanement levels and
cannot easily be adjusted by rate increases when volume falls. 26

The unstable financial markets have made it difficult for airports to issue airport
bonds. Consequently, airports are being forced to either postpone key development
projects or find other sources of short-term financing as an interim fix to keep projects
moving. One airport announced that its $1.68 billion project to build a new
international terminal could be suspended unless it is able to sell $600 million in
bonds.

The Stimulus Package Presents Oversight Challenges for FAA
The economic stimulus packages proposed in the House and Senate contain
significant funding amounts for the AIP that will help to revitalize airport
26
     Moody’s U.S. Public Finance, “2008 U.S. Airport Sector Outlook: Six Month Update,” August 2008.


                                                                                                       31
development this year and next year. However, such a large infusion of new funds
could create significant oversight challenges for FAA. For example, there will be
pressure to begin projects quickly, and FAA and the Department will have to balance
this pressure against the need to continually emphasize safety. It is critical that FAA
prepare for the potential risks involved and ensure steps are underway to mitigate
them.

Mr. Chairman, as part of our recently announced Department-wide review of
oversight challenges associated with economic stimulus funding for transportation
projects, I can assure you that my office will be working with the Department to
identify risks, oversight challenges, and best practices associated with the stimulus
funding for the AIP.

That concludes my statement, Mr. Chairman. I would be happy to answer any
questions you or other Members of the Subcommittee may have.




                                                                                    32
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
Testimony on Key Issues for Reauthorizing the Federal Aviation Administration

                       Section 508 Compliant Presentation

Table 1. FAA Budget, Fiscal Year 2007 Through Fiscal Year 2009

 • For FAA’s Operations Account: The FY 2007 enacted amount was
   $8,374,000,000. The FY 2008 enacted amount was $8,740,000,000. The FY 2009
   budget request is $8,998,000,000.

 • For FAA’s Facilities and Equipment Account: The FY 2007 enacted amount was
   $2,518,000,000. The FY 2008 enacted amount was $2,514,000,000. The FY 2009
   budget request is $2,724,000,000.

 • For FAA’s Airport Improvement Program Account: The FY 2007 enacted amount
   was $3,515,000,000. The FY 2008 enacted amount was $3,515,000,000. The FY
   2009 budget request is $2,750,000,000.

 • For FAA’s Research, Engineering, and Development Account: The FY 2007
   enacted amount was $130,000,000. The FY 2008 enacted amount was
   $147,000,000. The FY 2009 budget request is $171,000,000.

The totals for all four accounts are as follows: The FY 2007 enacted amount was
$14,537,000,000. The FY 2008 enacted amount was $14,915,000,000. The FY 2009
budget request is $14,643,000,000.

(Note: Figures may not add up exactly due to rounding.)

Source: FAA’s FY 2009 Budget Request

Figure 1. Airport and Airway Trust Fund Tax Revenues, Fiscal Year 2003 to
Fiscal Year 2008

  Fiscal Year    Revenue Amount
 FY 2003           $8,684,000,000
 FY 2004           $9,174,000,000
 FY 2005          $10,314,000,000
 FY 2006          $10,590,000,000
 FY 2007          $11,468,000,000
 FY 2008          $11,992,000,000
Figure 2. Airport and Airway Trust Fund Uncommitted Balance, Fiscal Year
2001 to Fiscal Year 2008

  Fiscal Year     Uncommitted
                     Balance
 FY 2001          $7,344,000,000
 FY 2002          $4,787,000,000
 FY 2003          $3,898,000,000
 FY 2004          $2,447,000,000
 FY 2005          $1,940,000,000
 FY 2006          $1,773,000,000
 FY 2007          $1,533,000,000
 FY 2008          $1,435,000,000
Source: Federal Aviation Administration

Figure 3-1. Runway Incursions, FY 1999 to FY 2007 – Original Definition

  Fiscal Year     Runway
                 Incursions
 FY 1999            329
 FY 2000            405
 FY 2001            407
 FY 2002            339
 FY 2003            323
 FY 2004            326
 FY 2005            327
 FY 2006            330
 FY 2007            370
Source: Federal Aviation Administration

Figure 3-2. Runway Incursions, FY 2004 to FY 2008 – New Definition

  Fiscal Year     Runway
                 Incursions
 FY 2004            730
 FY 2005            779
 FY 2006            816
 FY 2007            891
 FY 2008           1,009
Source: Federal Aviation Administration
Figure 4. The Federal Aviation Administration’s Capital Funding for Fiscal
Year 2008 to Fiscal Year 2013

(Note: NextGen funding includes programs such as ADS-B, SWIM, DataComm, and
developmental projects. Total NextGen funding for fiscal year 2008 to fiscal year
2013 from the capital account is projected to be $5.2 billion. Remaining Facilities and
Equipment (F&E) includes funding for existing projects, facilities, and support
service contracts.)

 • For fiscal year 2008, the NextGen funding enacted is $187,720,000, and the
   remaining funds enacted for Facilities and Equipment is $2,325,890,000. Total
   capital funding enacted for fiscal year 2008: $2,513,610,000.

 • For fiscal year 2009, the NextGen funding requested is $631,100,000, and the
   remaining funds requested for Facilities and Equipment is $2,092,410,000. Total
   capital funding requested for fiscal year 2009: $2,723,510,000.

 • For fiscal year 2010, the NextGen funding projection is $647,300,000, and the
   remaining funds projected for Facilities and Equipment is $2,154,760,000. Total
   capital funding projection for fiscal year 2010: $2,802,060,000.

 • For fiscal year 2011, the NextGen funding projection is $1,034,300,000, and the
   remaining funds projected for Facilities and Equipment is $2,089,450,000. Total
   capital funding projection for fiscal year 2011: $3,123,750,000.

 • For fiscal year 2012, the NextGen funding projection is $1,198,100,000, and the
   remaining funds projected for Facilities and Equipment is $2,094,010,000. Total
   capital funding projection for fiscal year 2012: $3,292,110,000.

 • For fiscal year 2013, the NextGen funding projection is $1,472,090,000, and the
   remaining funds projected for Facilities and Equipment is $2,051,970,000. Total
   capital funding projection for fiscal year 2013: $3,524,060,000.

Source: Federal Aviation Administration

Table 2. Average Age of Federal Aviation Administration Facilities

 • The average age of air traffic control towers is 29 years.

 • The average age of terminal radar approach control facilities is 26 years.

 • The average age of en route control centers is 43 years.

Source: Federal Aviation Administration
Figure 5. Controller Attrition and Hiring, Projected and Actual, Fiscal Year
2005 through Fiscal Year 2008

 • For fiscal year 2005 through fiscal year 2008, projected controller attrition was
   4,304. Actual controller attrition was 4,989.

 • For fiscal year 2005 through fiscal year 2008, projected controller hiring was
   4,628. Actual controller hiring was 5,646.

Source: Federal Aviation Administration

Table 3. Controller Workforce Composition

 • In April 2004, there were 12,328 Certified Professional Controllers and 2,209
   Controllers in Training. The total number of controllers was 14,537.

 • In September 2008, there were 11,007 Certified Professional Controllers and
   3,800 Controllers in Training. The total number of controllers was 14,807.

 • The number of Certified Professional Controllers in September 2008 was reduced
   by 1,321, compared to April 2004. The number of Controllers in training in
   September 2008 was increased by 1,591, compared to April 2004.

 • The total number of controllers in September 2008 was increased by 270,
   compared to April 2004.

Note: We chose 2004 as a benchmark for comparison purposes since 2004 was the
last year we audited this program and because 2004 was the year FAA first published
its Controller Workforce Plan.

Source: Federal Aviation Administration
Table 4. FAA Inspectors’ Workload

 • 116 major air carriers
 • 4,957 repair stations
 • 722,208 active pilots
 • 1,647 approved manufacturers
 • 92,207 flight instructors
 • 6,100 FAA designee representatives
 • 319,549 aircraft
 • 363,217 FAA-licensed mechanics and repairmen

Source: FAA Aviation Safety Workforce Plan as of March 2008

Figure 6. Approved Passenger Facility Charge Uses by Category, Calendar Year
1992 to 2008

 Access              6 percent
 Airside             18 percent
 Denver Airport      5 percent
 Interest            31 percent
 Landside            36 percent
 Noise               4 percent
Note: Figure shows percent of $65.8 billion approved.
